HHS/OIG, Audit -"Review of Consulting and Professional Service Costs Claimed by Kansas Advocacy and Protective Services Inc., Topeka, Kansas,"(A-07-03-02008)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Consulting and Professional Service Costs Claimed by Kansas Advocacy and Protective Services Inc., Topeka,
Kansas," (A-07-03-02008)
January 9, 2004
Complete
Text of Report is available in PDF format (703 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the review was to determine the allowability of consultant fees, legal fees and selected health insurance
costs charged to Federal grants when these amounts were paid to, or on behalf of, members of Kansas Advocacy and Protective
Services (KAPS) board of directors.  The review covered the period October 1, 1995 through September 30, 2002.  During
the period of our review, KAPS paid a total of $491,936 of unallowable consulting and legal fees, and health insurance
costs to, or on behalf of, members of the KAPS board of directors.  We recommended the amount be refunded to the applicable
Federal programs.  The law firm that responded to the draft report for KAPS indicated it could not respond to the
validity of the facts and reasonableness of the recommendations because of the lack of records.  They further indicated
that KAPS will cooperate fully with the Federal agencies involved in order to bring resolution to this matter.